No.
___________________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
_________________________________________
KYLE KINZY and JACKI KINZY,
Petitioners,
v.
FIRST TENNESEE BANK, N.A.
Respondent.
______________________________________
Petition for a Writ of Certiorari to the
Illinois Appellate Court, Second District
______________________________________
PETITION FOR WRIT OF CERTIORARI
____________________________________
Stephen L. Richards *
Joshua S.M. Richards
53 West Jackson, Suite 756
Chicago, IL 60604
Sricha5461@aol.com
Attorneys for the Petitioners Kyle Kinzy and
Jacky Kinzy
* Counsel of Record

ii

QUESTIONS PRESENTED FOR REVIEW
1. Whether a state official arbitrarily
and capriciously violates substantive
due process by rejecting a timely
electronic filing merely because
attached exhibits were filed in
“landscape” rather than “portrait”
format.
2. Whether state court filing rules
which fail to provide fair notice that
electronic filings require the filing of
exhibits in “portrait” rather than
“landscape” format deprive civil
litigants of their right to procedural
due process.
3. Whether a state statute which bars
all claims following the confirmation
of a judicial sale is preempted by the
automatic stay provisions of the
federal bankruptcy laws.

iii

TABLE OF CONTENTS
QUESTION PRESENTED……………..…..…...ii
TABLE OF CONTENTS…………….……..…...iii
TABLE OF AUTHORITIES……………………vii
OPINIONS BELOW……………..…..……….…...1
JURISDICTION…………………..…………........1
CONSTITUTIONAL
PROVISIONS INVOLVED………………………1
STATEMENT OF THE CASE…………….......3

iv

REASONS FOR GRANTING THE
PETITION…………………………………..…….11
I:
THIS COURT SHOULD GRANT THE
PETITION TO DETERMINE WHETHER A
STATE OFFICIAL ARBITRARILY AND
CAPRICIOUSLY VIOLATES DUE PROCESS
BY REFUSING TO ALLOW A TIMELY
ELECTRONIC FILING MERELY BECAUSE
ATTACHED EXHIBITS WERE FILED IN A
“LANDSCAPE”
RATHER
THAN
A
“PORTRAIT” FORMAT…………………………11
II:
THIS COURT SHOULD GRANT THE
PETITION TO DETERMINE WHETHER
COURT RULES WHICH DO NOT GIVE FAIR
NOTICE THAT AN ELECTRONIC FILING
CANNOT BE ACCEPTED IF EXHIBITS ARE
FILED IN “LANDSCAPE” RATHER THAN
“PORTRAIT”
FORMAT
VIOLATE
DUE
PROCESS………………….………………………17

v

III:
THIS COURT SHOULD GRANT THE
PETITION FOR WRIT OF CERTIORARI TO
DETERMINE
WHETHER
ILLINOIS
STATUTE 735 ILCS 5/15-1309(c), WHICH
BARS
ALL
CLAIMS
FOLLOWING
A
CONFIRMATION OF JUDICIAL SALE IS
PREEMPTED BY FEDERAL BANKRUPTCY
LAWS, INCLUDING 11 U.S.C. SEC. 362 (THE
AUTOMATIC STAY PROVISION) AND SEC.
362(K) (WILLFUL VIOLATIONS OF THE
AUTOMATIC STAY)…………………………….31
CONCLUSION……………………………………36
TABLE OF CONTENTS OF APPENDIX…...A-1
APPENDIX A (Order of the Illinois Supreme
Court Denying Petition for Leave to
Appeal)……………………………………………A-2
APPENDIX B (Order of the Illinois Appellate
Court for the Second District)…………..……A-3
APPENDIX C (Decision of Circuit Court)….-20

vi

APPENDIX D (Statutes and Rules
Involved)…………………………………………22

vii

TABLE OF AUTHORITIES
CASES
U.S. Supreme Court Cases

Page

Armstrong v. Manzo, 380 U.S. 545
(1965)…………………..…………………………..18

Arnett v. Kennedy, 416 U.S. 134 (1974)………19
Bank of Columbia v. Okely,
4 Wheat. 235-244 [(1819)………………………..12

Cafeteria Workers v. McElroy, 367 U.S. 886
895 (1961)……………………………………..18. 19

Capital Cities Cable, Inc. v. Crisp,
467 U.S. 691 (1984)……………………….……..34

Daniels v. Williams, 474 U.S. 327
(1986)………………………………………………13

Davidson v. Cannon, 474 U.S. 344 (1986)……14
Florida Lime Avocado Growers, Inc. v. Paul,
373 U.S. 132 (1963)……………..……………….34

viii

Fuentes v. Shevin, 407 U.S. 67, 82 (1972)……13
Giaccio v. Pennsylvania, 382 U.S. 399
(1966)………………………………………………27

Gibbons v. Ogden, 9 Wheat. 1 (1824)…………13
Goldberg v. Kelly, 397 U.S., 254 (1970)………19
Grannis v. Ordean, 234 U.S. 385 (1914)……..18
Griswold v. Connecticut, 381 U.S. 479
(1965)………………………………………………13

Hines v. Davidowitz, 312 U.S. 52 (1941)……..34
Hoffman Estates v. Flipside, Hoffman
Estates, Inc, 455 U.S. 489 (1982)………………28
Hurtado v. California, 110 U.S. 516(1884)..…12
Klopfer v. North Carolina, 386 U.S. 213
(1967)………………………………………………24

Morrissey v. Brewer, 408 U.S. 471
(1972)………………………………………………18

ix

Murray's Lessee v. Hoboken Land &
Improvement Co., 18 How. 272,
15 L.Ed. 372 (1856)………………………..…….24

Pacific Mut. Life Ins. Co. v. Haslip,
499 U.S. 1 (1991)……………………..…….……23

Rice v. Santa Fe Elevator Corp.,
331 U.S. 218 (1947)…………….……………….33

Rochin v. California, 342 U.S. 165 (1952)……13
Sacramento v. Lewis, 523 U.S. 833 (1998)…..12
Sessions v. Dimaya, 138 S. Ct. 1204
(2018)………………………..……………….passim

Wolff v. McDonnell, 418 U.S. 539 (1974)……13
Other Federal Cases

Mitchell v. Comm'r of Soc. Sec., No. 11-15592,
(E.D. Mich. Mar. 13, 2013)……………………14
State Court Cases

First Tenn. Bank, N.A., v. Kinzy, 2020 IL App
(2d) 180799………………………………………10

x

Harris Bank, NA. v. Harris, 2015 IL App
(lst) 133017………………………………………10

People v. Vincent, 226 Ill. 2d 1 (2007)………..3
U.S. Bank National Ass'n v. Prabhakaran,
2013 IL App (1st) 111224……………….…6, 10
Other Cases

Goldington v. Bassingburn, Y.B. Trin.
3 Edw. II, f. 27b (1310)……………………….25
CONSTITUTIONAL PROVISIONS,
STATUTES AND RULES
U.S. Const. amend. XIV…………………passim
United States Const. Article VI, cl. 2……….33
11 U.S.C. Sec. 362……………………………..34
28 U.S.C. Sec. 1257……………………………..1
735 ILCS § 5/2-1401………………………passim

xi

735 ILCS § 5/15-1309(C)……….……4, 6, 31, 32
Illinois Supreme Court, Rule 9……………..…15
Lake County Local Rule 2-1.02……………..….8
20 C.F.R. § 416.141……………………..………15
SECONDARY AUTHORITIES
Bellia, Article III and the Cause of Action,
89 Iowa L. Rev. 777 (2004)…………….……….25
1 E. Coke, The Second Part of the Institutes
of the Laws of England 50 (1797)…….…..23, 24
Eberle, Procedural Due Process: The Original
Understanding, 4 Const. Comment. 339
(1987)………………………………………………24
Mann, Punitive Civil Sanctions: The
Middleground Between Criminal and Civil
Law, 101 Yale L.J. 1795 (1992)……………..…29
Moffitt, Pleadings in the Age of Settlement,
80 Ind. L.J. 727 (2005)…………………….……25
3 J. Story, Commentaries on the

xii

Constitution of the United States (1833)……24
Subrin, How Equity Conquered Common Law:
The Federal Rules of Civil Procedure in
Historical Perspective, 135 U. Pa. L. Rev. 909
(7)………………………………………………….25

1

OPINIONS BELOW
The order of the Illinois Supreme Court,
denying the petition for leave to appeal is
unpublished. It is attached as Appendix A.
The order of the Illinois Appellate Court for the
Second District is cited as First Tenn. Bank,
N.A., v. Kinzy, 2020 IL App (2d) 180799 and is
attached as Appendix B.
JURISDICTION
The Illinois Supreme Court denied the
Kinzys’ petition for leave to appeal on September
30, 2020. This court has jurisdiction under 28
U.S.C. Sec. 1257.
.
CONSTITUTIONAL PROVISIONS
INVOLVED
United States Constitution, amend. XIV:
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,

2

are citizens of the United States and of the State
wherein they reside. No State shall make or
enforce any law which shall abridge the
privileges or immunities of citizens of the United
States; nor shall any State deprive any person of
life, liberty, or property, without due process of
law; nor deny to any person within its
jurisdiction the equal protection of the laws.
United States Constitution, Article VI, cl. 2:
This Constitution, and the Laws of the United
States which shall be made in Pursuance
thereof; and all Treaties made, or which shall be
made, under the Authority of the United States,
shall be the supreme Law of the Land; and the
Judges in every State shall be bound thereby,
any Thing in the Constitution or Laws of any
State to the Contrary notwithstanding.
The remaining statutes and rules involved are
included in Appendix D.

3

STATEMENT OF THE CASE
Although this case ultimately stems from
complex litigation involving an action for
foreclosure of a mortgage filed by respondents
against petitioners, the key questions with
respect to this petition both involve a motion to
vacate a default judgment and a confirmation of
sale, under the pertinent Illinois statute, 735
ILCS § 5/2-1401.
Therefore, this statement of facts begins
with the procedural history of the 2-1401 motion
and contains references to the prior litigation
only where necessary.
Under Illinois law, a 2-1401 petition allows
a litigant relief predicated upon proof, by a
preponderance of evidence, of a defense or claim
that would have precluded entry of the judgment
in the original action and diligence in both
discovering the defense or claim and presenting
the petition. People v. Vincent, 226 Ill. 2d 1, 7-8
(2007). The petition must be filed not later than
2 years after the entry of the order or judgment.
735 ILCS 5/2-1401 (c). 1
1 Illinois case law refers to actions taken under 2-1401 as both petitions and
motions. Herein, “2-1401 petition” or “2-1401 motion” are used

4

A default judgment was entered against
Kyle Kinzy and Jacki Kinzy on May 6, 2015, and
a confirmation of sale was entered on July 27,
2016. (R. C 7674). The deadline for filing a 21401 petition with respect to this judgment was
therefore July 27, 2018.
On July 26, 2018, shortly before midnight,
petitioners attempted to electronically file their
2-1401 motion. The motion alleged the following
broad grounds for relief: (1) the Kinzys had a
meritorious claim or defense to the underlying
action (S.R. I, 8-15), (2) that the Kinzys had
acted with due diligence in pursuing the
underlying action and in filing the 2-1401 (S.R.
I, 16-17), and (3) that 735 ILCS 5/15-1309(c),
which bars all claims following a confirmation of
judicial sale, is preempted by federal law and is
unconstitutional. (S.R. I, 17-18).
More specifically, the 2-1401 petition
claimed that the Kinzys had the following
meritorious claims or defenses: (1) that after the
closing, First Tennessee forged the underlying
mortgage documents and recorded the forgeries
in order to avoid the effect of an Illinois law that
caused the mortgage to be void ab initio (S.R. I,
interchangeably depending upon whether the party or case law referred to it
that way.

5

8-9), (2) that First Tennessee breached first and
intentionally triggered events that led to the
Kinzys’ bankruptcy including the bank’s
wrongful withholding of hundreds of thousands
of dollars of construction draw funds from the
workmen while the Kinzys continued to timely
pay the mortgage; (3) that the Kinzys’ defenses
and counterclaims survived their respective
bankruptcies (S.R. I, 9), (4) that Illinois Supreme
Court Rule 305(k), which had been invoked by
the second district, in dismissing the Kinzys
prior appeal, was unconstitutional (S.R. 9-11),
(5) that First Tennessee, acting under color of
state law, violated the Kinzys’ fourteenth
amendment due process rights, and (6) that the
foreclosure and judicial sale were preempted by
the federal bankruptcy laws and therefore void.
(S.R. I, 13- 15).
With respect to due diligence, the 2-1401
motion alleged that the Kinzys acted with due
diligence because they had been denied their
right to inspect the original mortgage
documents, because they could not file the 21401 motion while the original appeal was
pending, and because the two-year limit for
filing the petition was tolled by First Tennessee’s
fraudulent concealment of the forgery of the
mortgage documents among other documents

6

that demonstrated First Tennessee’s role in the
forgery. (S.R. I, 16-17). Additionally, the motion
alleged that if the prior judgments were
rendered void due to a violation of the automatic
stay or void on other grounds, then the two-year
limit for filing the petition did not apply.
Finally, the motion alleged that 735 ILCS
5/15-1309(c), which bars all claims following a
confirmation of judicial sale, as interpreted by
the appellate court decisions in U.S. Bank
National Ass'n v. Prabhakaran, 2013 IL App
(1st) 111224 and Harris Bank, NA. v. Harris,
2015 IL App (lst) 133017 ¶ 47, was
unconstitutional in light of federal preemption.
The motion argued that the court should fashion
a remedy which would leave the in rem
judgment in favor of the innocent third party
purchasers of the property intact, while allowing
the Kinzys the ability to pursue their in
personam counter claims for money damages
against First Tennessee. (S.R. I, 17-18).
The facts concerning the electronic filing of
the motion to vacate are as follows. The two-year
statute of limitations for filing a 2-401 motion to
vacate would normally expire at midnight on
July 27, 2018, two years after the confirmation
of sale.

7

On July 26, 2018, a few months after the
resolution of a previous appeal in the Illinois
Appellate Court, 2nd District, and before
midnight, more than 24 hours prior to the
expiration of the statute, Kyle Kinzy submitted
a complete copy of the motion, together with the
supporting exhibits via the court’s efiling
system. Shortly thereafter, and still before
midnight on July 26, 2018, Mr. Kinzy emailed a
copy of the motion to opposing counsel. (R.
C9472).
On Friday, July 27, 2018, after receiving a
notice that the filing had been rejected, Mr.
Kinzy communicated with the clerk and received
instructions on how to refile the motion. After
complying with those instructions, he promptly
resubmitted the motion that same day. (R.
C9473).
The following Monday, July 30, 2018, Mr.
Kinzy again received a notice that the filing had
been rejected. Mr. Kinzy called the clerk and
learned that the purported reason for the
rejection was that some of the exhibits contained
images, printouts of the payment history made
by First Tennessee and other exhibits, which
were in landscape format. The Clerk of Lake
County’s software for the efile system
automatically rotated the landscape images into

8

portrait images without resizing them, which
violated the margin requirements of Lake
County Local Rule 2-1.02. (R. C9473).
After
two
previously
unsuccessful
attempts to file the motion, the Kinzys
submitted the motion once again on Monday,
July 30, 2018, with the exhibits attached in
portrait format. The next day, Tuesday, July 31,
2018, the filing was accepted, with a filestamped date of Monday, July 30, 2018. (R.
C9473).
The Kinzys asked the Clerk several times
over the next few weeks for the rule which
required the Clerk to reject the filings. No rule
was ever provided. (R. C9473).
On August 15, 2018, the Illinois circuit
court judge dismissed the 2-1401 petition. On
August 23, 2018, the Kinzys filed a motion to
reconsider Judge Berrones’s order. (R. C8633).
The Kinzys argued: (1) Judge Berrones erred by
striking the 2-1401 motion on the basis that it
was not in the form of a petition (R. C8639), (2)
Judge Berrones dismissed the 2-1401 motion
prematurely, before the mandatory 30 day
period for a response (R. C8640), (3) the Kinzys’
submission of the 2-1401 motion before the twoyear deadline was timely (R. C8640-41), (4) the

9

Clerk’s initial rejections of the 2-1401 motion
conflicted with Illinois Supreme Court Rule 131
(R. C8641-43), (5) the motion to vacate also
raised issues of voidness and therefore could be
filed beyond the two-year statute (R. C8641-42),
and (6) the court should have considered the
contemporaneously filed motion for recusal
before ruling on the motion to vacate. (R. C864344).
During the oral arguments Mr. Kinzy
contended that the trial judge should accept the
petition as timely filed because it was timely
submitted, or in the alternative that good cause
and/or a technical/mechanical failure of the efile
system excused the Kinzys from timely filing
and the petition should be accepted late for good
cause shown.
Simultaneously pending with the 2-1401
motion was a Motion to Substitute Judge for
Cause. The Illinois circuit court judge decided he
need not make any decision about the recusal for
cause, nor refer the motion to another judge,
because the petition was untimely filed and
accordingly the trial court had no jurisdiction.
(App. 20).
On appeal, the Kinzys argued, among
other things, that the failure to allow the filing

10

of the 2-1401 motion denied them federal due
process. However, the Illinois appellate court
ignored the claim, holding only that the Kinzys
had not shown the defective filing was due to a
“technical failure” because a “technical failure”
does not include a failure of the user’s
equipment. 2 The Illinois appellate court did
not consider whether there was “good cause” for
the defective filing or whether the failure to
accept the filing violated due process. First
Tenn. Bank, N.A., v. Kinzy, 2020 IL App (2d)
180799, ¶ 24.
Because of this disposition, the Illinois
appellate court did not rule as to whether 735
ILCS 5/15-1309(c), which bars all claims
following a confirmation of judicial sale, as
interpreted by the appellate court decisions in
U.S. Bank National Association v. Prabhakaran,
2013 IL App (1st) 111224 ¶ 30 and Harris Bank,
NA. v. Harris, 2015 IL App (lst) 133017 ¶ 47, was
unconstitutional in light of federal preemption.
A petition for leave to appeal to the Illinois
Supreme Court, which raised both constitutional
issues, was denied on September 30, 2020.
2 In the instant case, Mr. Kinzy’s equipment did not fail. Instead, the Clerk’s
software rotated the landscape exhibits and then the Clerk decided to reject
the timely submitted petition. Accordingly, the technical failure occurred in
the Clerk’s office rather than with Mr. Kinzy’s equipment

11

REASONS FOR GRANTING THE
PETITION
I.
THIS COURT SHOULD GRANT THE
PETITION TO DETERMINE WHETHER A
STATE OFFICIAL ARBITRARILY AND
CAPRICIOUSLY VIOLATES DUE PROCESS
BY REFUSING TO ALLOW A TIMELY
ELECTRONIC FILING MERELY BECAUSE
ATTACHED EXHIBITS WERE FILED IN A
“LANDSCAPE”
RATHER
THAN
A
“PORTRAIT” FORMAT
This Court should grant certiorari to
determine the Kinzy’s substantive due process
rights were violated when the Illinois courts
refused an otherwise timely electronic filing
merely because attached exhibits were filed in a
“landscape” rather than a “portrait” format.
Given the growing ubiquity of electronic
filing in all courts, state and federal, this is a
question of national importance. Depriving a

12

litigant of her day in court merely because a
clerk arbitrarily chooses to “reject” her filing for
reasons which are not adequately specified in
advance, either orally or in writing, is
extraordinarily unjust. But this is exactly what
happened in this case.
Under the fourteenth amendment to the
United States constitution no State may
“deprive any person of life, liberty, or property,
without due process of law.” U.S. Const. amend.
XIV. As this Court explained in Sacramento v.
Lewis, 523 U.S. 833, 845 (1998) “since the time
of the [the Court’s] early explanations of due
process, [the Court has] understood the core of
the concept to be protection from arbitrary
action.”
As this Court further explained in Hurtado
v. California, 110 U.S. 516, 527 (1884:
"The principal and true meaning of the
phrase has never been more tersely or accurately
stated than by Mr. Justice Johnson, in Bank of
Columbia v. Okely, 4 Wheat. 235-244 [(1819)]:
`As to the words from Magna Carta,
incorporated into the Constitution of Maryland,
after volumes spoken and written with a view to
their exposition, the good sense of mankind has

13

at last settled down to this: that they were
intended to secure the individual from the
arbitrary exercise of the powers of government,
unrestrained by the established principles of
private right and distributive justice.'"
The “touchstone” of due process is
protection of the individual against arbitrary
action of government," Wolff v. McDonnell, 418
U.S. 539, 558 (1974), whether the fault lies in a
denial of fundamental procedural fairness, see,
e.g., Fuentes v. Shevin, 407 U.S. 67, 82 (1972)
(the procedural due process guarantee protects
against "arbitrary takings"), or in the exercise of
power without any reasonable justification in
the service of a legitimate governmental
objective, see, e.g., Daniels v. Williams, 474 U.S.,
at 331 (the substantive due process guarantee
protects against government power arbitrarily
and oppressively exercised). Due process
protection in the substantive sense limits what
the government may do in both its legislative
see, e.g., Griswold v. Connecticut, 381 U.S. 479
(1965), and its executive capacities, see, e.g.,
Rochin v. California, 342 U.S. 165 (1952). With
respect to executive action, the due process
clause is intended to prevent government
officials “from abusing [their] power, or
employing it as an instrument of oppression.”

14

Davidson v. Cannon, 474 U.S. 344, 348) (1986).
This Court has not had occasion to decide
whether
the
arbitrary
and
capricious
application of a time limit or a statute of
limitation will violate substantive due process.
This makes this case a case of first impression
and makes the grant of the petition for writ of
certiorari even more important. But lower courts
have, on occasion, decided similar cases and
found the arbitrary and capricious application of
time limits violated due process.
For example, in Mitchell v. Comm'r of Soc.
Sec., No. 11-15592, at *1 (E.D. Mich. Mar. 13,
2013), a claim for social security benefits, the
plaintiff was unrepresented in her original
hearing before the Administrative Law Judge,
and then missed the 60-day deadline to file for
rehearing by 60 days. At a hearing on her
request for an extension of time to file plaintiff
explained that she was unaware of her ability to
file for rehearing until she spoke to a lawyer and
was not able to call the SSI office for assistance
because she was dealing with her son’s illness.
Although the Code of Federal Regulations
specified that good cause could be established by
a death or serious illness in the claimant’s

15

immediate family, 20 C.F.R. § 416.1411., the
ALJ disregarded plaintiff’s excuse and found the
petition for rehearing to be untimely. Because
the ALJ had acted arbitrarily and capriciously
by ignoring the regulation, plaintiff’s due process
rights had been violated.
Here, similarly arbitrary and capricious
action by the Illinois clerk deprived the Kinzy’s
of due process. No statute, rule, or court decision
informed the Kinzys in advance that exhibits
had to be submitted in portrait rather than
landscape format.
Instead, the Illinois rules regarding
electronic filing provide explicitly that “a
document is considered timely if submitted
before midnight (in the court’s time zone) on or
before the date on which the document is due.”
Illinois Supreme Court Rule 9 (eff. January 1,
2018). There is no question here that the Kinzys
submitted their filing, which was correct with
the exception of the format orientation of the
exhibits, on July 26, 2018, more than 24 hours
prior to the expiration of the statute, with notice
to opposing counsel. (R. C9472).
Moreover, like 20 C.F.R. § 416.1411, the
Illinois Supreme Court rules contains a savings

16

provision where late filing can be excused for
“good cause shown.” Even though it is hard to
imagine a better “good cause” than an otherwise
timely filing which was correct apart from the
orientation of two exhibits, the Illinois appellate
court failed to even consider “good cause” and
instead focused only on the other savings clause,
“technical failure.” The failure to apply their own
rules to the Kinzy’s situation was the very
definition of “arbitrary and capricious.”
Therefore, the petition for writ of certiorari
should be granted.

17

II.
THIS COURT SHOULD GRANT THE
PETITION TO DETERMINE WHETHER
COURT RULES WHICH DO NOT GIVE FAIR
NOTICE THAT AN ELECTRONIC FILING
CANNOT BE ACCEPTED IF EXHIBITS ARE
FILED IN “LANDSCAPE” RATHER THAN
“PORTRAIT”
FORMAT
VIOLATE
DUE
PROCESS
In addition to violating the Kinzys
substantive due process rights, the failure of
Illinois court rules to give the Kinzys adequate
notice that their filing would be rejected if the
attached exhibits were submitted in landscape
rather than portrait format denied them
procedural due process.
The Clerk’s decision to reject the Kinzys’
petition was not only made without notice to the
Kinzys of the unwritten
“efile exhibits in
portrait format only”
rule, but altogether
deprived the Kinzys of their opportunity to be
heard on their petition.
The fundamental requirement of due
process is the opportunity to be heard "at a

18

meaningful time and in a meaningful manner."
Armstrong v. Manzo, 380 U.S. 545, 552 (1965).
See Grannis v. Ordean, 234 U.S. 385, 394,
(1914). In this case, the Kinzys were deprived of
any opportunity to be heard at any time and in
any manner.
At the hearing on the 2-1401 petition all
the substantive arguments after the petition
were ignored due to the lack of any notice that
the 2-1401 petition would be rejected for the
inclusion of two exhibits in landscape rather
than portrait format.
Since Sec. 2-1401 is a jurisdictional rule,
the Clerk’s decision to reject the timely
submitted 2-1401 petition directly impacts the
Kinzys opportunity to be heard, " 'Due process,'
unlike some legal rules, is not a technical
conception with a fixed content unrelated to
time, place and circumstances." Cafeteria
Workers v. McElroy, 367 U.S. 886, 895 (1961).
"(D)ue process is flexible and calls for such
procedural protections as the particular
situation demands." Morrissey v. Brewer, 408
U.S. 471, 481 (1972). Accordingly, resolution of
the issue whether the administrative procedures
provided here are constitutionally sufficient
requires analysis of the governmental and

19

private interests that are affected. Arnett v.
Kennedy, 416 U.S. 134, 167-68 (1974)(Powell, J.,
concurring in part); Goldberg v. Kelly, 397 U.S.,
254, 263-266; Cafeteria Workers, 367 U.S., at
895.
Consideration of the interests and the
procedures involved here compels the conclusion
that the Kinzys were deprived of substantive due
process.
First, in the instant case, the Kinzys’
private interest in having their 2-1401 petition
heard was substantially destroyed by the official
action of the clerk. Second, there was a serious
risk of an erroneous deprivation of such interest
through the unwritten “efile in portrait format
only” rule, which
had no safeguards and
completely surprised the Kinzys. Third, the
state’s interest could have been cheaply and
effectively be served by publishing a rule
requiring portrait only format or by allowing
additional time for litigants to refile petitions
that were unwittingly filed in the landscape
format.
Efiling, which has suddenly become
ubiquitous throughout the nation’s courts, has
brought a new set of standards and rules to

20

follow for attorneys and pro se litigants. In this
case, rules regarding the efiling of documents
with the Clerk of court of Lake County have been
published, along with rules published by the
Illlinois Supreme Court.
But none of the published rules mentioned
that documents submitted through the efile
system must be submitted in portrait format
only. Before efiling, the documents submitted
would be stamped and accepted regardless of
whether they were in landscape or portrait
format. Unless or until the Illinois courts or
legislature amends their rules to include
instruction about landscape or portrait format,
many additional litigants may be deprived of due
process when the Clerk applies an unwritten
rule to reject such filings. No litigant should be
deprived of the opportunity to be heard after
their petition is timely filed through the
application of an unwritten rule which
permanently deprives a litigant of all rights.
This case is therefore a case of first
impression to this Court regarding state efiling
procedures that deprive litigants of substantive
or procedural due process rights without fair
notice due to an unconstitutionally vague,
unwritten rule.

21

Moreover, a grant of the petition for writ of
certiorari would also enable this Court to decide
a question left open for decision by this Court’s
split opinion in Sessions v. Dimaya, 138 S. Ct.
1204, 1213 (2018) as to whether a less exacting
standard for a vagueness challenge applies in
ordinary civil cases than applies in criminal and
exceptional civil cases. Compare Dimaya, 138 S.
Ct. 1204, at 1213-15 (opinion of court by Kagan,
J., with respect to Parts I, III, IV-B, and V, and
plurality opinion with respect to parts II, and IVA, joined by Justices Ginsburg, Breyer, and
Sotomayor) (applying criminal standard for
vagueness to deportation proceedings but
declining to apply the same standard to all civil
proceedings) with Sessions v. Dimaya, 138 S. Ct.
1204, 1225 (Gorsuch, J., concurring in part and
concurring in judgment)(declining to join
plurality’s reasoning that criminal standard for
vagueness should apply only to deportation
proceedings and not to other civil cases).
Perhaps the best recent explication of this
aspect of procedural due process is contained in
Justice Neil Gorsuch’s eloquent concurrence in
Dimaya, 138 S. Ct. at 1223 (Gorsuch, J.,
concurring in part and concurring in the
judgment):

22

“Vague laws invite arbitrary
power. Before the Revolution, the
crime of treason in English law was
so capaciously construed that the
mere expression of disfavored
opinions could invite transportation
or death. The founders cited the
crown's abuse of "pretended" crimes
like this as one of their reasons for
revolution. See Declaration of
Independence ¶ 21. Today's vague
laws may not be as invidious, but
they can invite the exercise of
arbitrary power all the same—by
leaving the people in the dark about
what the law demands and allowing
prosecutors and courts to make it
up.”
Judge Gorsuch went on to forcefully
counter the view of the Dimaya dissenters that
due process does not include a prohibition on
vagueness:
The Fifth and Fourteenth
Amendments guarantee that "life,
liberty, or property" may not be taken
"without due process of law." That

23

means the government generally
may not deprive a person of those
rights without affording him the
benefit of (at least) those "customary
procedures to which freemen were
entitled by the old law of England."

Pacific Mut. Life Ins. Co. v.
Haslip,499 U.S. 1, 28, 111 S.Ct. 1032,
113 L.Ed.2d 1 (1991) (Scalia, J.,
concurring in judgment) (internal
quotation
marks
omitted).
Admittedly, some have suggested
that the Due Process Clause does less
work than this, allowing the
government to deprive people of their
liberty through whatever procedures
(or lack of them) the government's
current laws may tolerate. Post, at
1243, n. 1 (opinion of THOMAS, J.)
(collecting authorities). But in my
view the weight of the historical
evidence shows that the clause
sought to ensure that the people's
rights are never any less secure
against governmental invasion than
they were at common law. Lord Coke
took this view of the English due
process guarantee. 1 E. Coke, The
Second Part of the Institutes of the

24

Laws of England 50 (1797). John
Rutledge, our second Chief Justice,
explained that Coke's teachings were
carefully studied and widely adopted
by the framers, becoming " 'almost
the foundations of our law.' " Klopfer
v. North Carolina, 386 U.S. 213, 225,
87 S.Ct. 988, 18 L.Ed.2d 1 (1967).
And many more students of the
Constitution besides—from Justice
Story to Justice Scalia—have agreed
that this view best represents the
original understanding of our own
Due Process Clause. See, e.g.,

Murray's Lessee v. Hoboken Land &
Improvement Co., 18 How. 272, 277,
15 L.Ed. 372 (1856) ; 3 J. Story,
Commentaries on the Constitution of
the United States § 1783, p. 661
(1833); Pacific Mut., supra, at 28–29,
111 S.Ct. 1032 (opinion of Scalia, J.);
Eberle, Procedural Due Process: The
Original Understanding, 4 Const.
Comment. 339, 341 (1987).”

138 S. Ct. 1204, 1224-25 (2018)(Gorsuch,
J., concurring in part and concurring in the
judgment).

25

Justice Gorsuch went on to explain that,
historically, the key component of procedural
due process, in both criminal and civil cases, is
the requirement of “fair notice.” As to civil cases,
Justice Gorsuch explained the historical origins
of the fair notice requirement as follows:
“A civil suit began by obtaining
a writ—a detailed and specific form
of action asking for particular relief.
Bellia, Article III and the Cause of
Action, 89 Iowa L. Rev. 777, 784–786
(2004) ; Subrin, How Equity
Conquered Common Law: The
Federal Rules of Civil Procedure in
Historical Perspective, 135 U. Pa. L.
Rev. 909, 914–915 (1987). Because
the various civil writs were clearly
defined, English subjects served with
one would know with particularity
what legal requirement they were
alleged to have violated and,
accordingly, what would be at issue
in court. Id., at 917; Moffitt,
Pleadings in the Age of Settlement,
80 Ind. L.J. 727, 731 (2005). And a
writ risked being held defective if it
didn't provide fair notice. Goldington
v. Bassingburn, Y.B. Trin. 3 Edw. II,

26

f. 27b (1310) (explaining that it was
"the law of the land" that "no one
[could] be taken by surprise" by
having to "answer in court for what
[one] has not been warned to
answer").”
138 S. Ct. at 1225 (2018)(Gorsuch, J.,
concurring in part and concurring in the
judgment).
The vagueness principle applied not only to
civil writs, but also to statutes:
“Blackstone illustrated the
point with a case involving a statute
that made "stealing sheep, or other
cattle" a felony. 1 Blackstone 88
(emphasis deleted). Because the term
"cattle" embraced a good deal more
then than it does now (including wild
animals, no less), the court held the
statute failed to provide adequate
notice about what it did and did not
cover—and so the court treated the
term "cattle" as a nullity. Ibid. All of
which, Blackstone added, had the
salutary effect of inducing the
legislature to reenter the field and

27

make itself clear by passing a new
law extending the statute to "bulls,
cows, oxen," and more "by name."
Ibid.
138 S. Ct. at 1225 (Gorsuch, J., concurring
in part and concurring in the judgment).
In conclusion, Justice Gorsuch put paid to
the notion that civil deprivations of property are
somehow less serious than criminal penalties
and are therefore subject to a less demanding
standard of review for vagueness:
“This Court has made clear, too,
that due process protections against
vague laws are "not to be avoided by
the simple label a State chooses to
fasten upon its conduct or its
statute." Giaccio v. Pennsylvania,
382 U.S. 399, 402, 86 S.Ct. 518, 15
L.Ed.2d 447 (1966). So the
happenstance that a law is found in
the civil or criminal part of the
statute books cannot be dispositive.
To be sure, this Court has also said
that what qualifies as fair notice
depends "in part on the nature of the
enactment." Hoffman Estates, 455

28

U.S., at 498, 102 S.Ct. 1186. And the
Court has sometimes "expressed
greater tolerance of enactments with
civil rather than criminal penalties
because
the
consequences
of
imprecision are qualitatively less
severe." Id., at 498–499, 102 S.Ct.
1186. But to acknowledge these
truisms does nothing to prove that
civil laws must always be subject to
the government's emaciated form of
review.
In fact, if the severity of the
consequences counts when deciding
the standard of review, shouldn't we
also take account of the fact that
today's civil laws regularly impose
penalties far more severe than those
found in many criminal statutes?
Ours is a world filled with more and
more civil laws bearing more and
more extravagant punishments.
Today's "civil" penalties include
confiscatory
rather
than
compensatory
fines,
forfeiture
provisions that allow homes to be
taken, remedies that strip persons of
their professional licenses and

29

livelihoods, and the power to commit
persons
against
their
will
indefinitely. Some of these penalties
are routinely imposed and are
routinely
graver
than
those
associated
with
misdemeanor
crimes—and often harsher than the
punishment for felonies. And not only
are "punitive civil sanctions ...
rapidly
expanding,"
they
are
"sometimes more severely punitive
than the parallel criminal sanctions
for the same conduct." Mann,
Punitive Civil Sanctions: The
Middleground Between Criminal and
Civil Law, 101 Yale L.J. 1795, 1798
(1992) (emphasis added). Given all
this, any suggestion that criminal
cases warrant a heightened standard
of review does more to persuade me
that the criminal standard should be
set above our precedent's current
threshold than to suggest the civil
standard should be buried below it.”
138 S. Ct. at 1229 (Gorsuch, J., concurring
in part and concurring in the judgment).
This case is a very good vehicle for

30

addressing the standard for vagueness in civil
cases. The loss suffered – the Kinzys’ loss of any
inability to litigate a claim that forgery had
deprived them of their legal interest in a
particular, valuable property was very
substantial. The notice that they had to
electronically file the exhibits to their motion in
a particular format was non-existent. The
vagueness of the terms “technical failure” and
“good cause” was palpable, particularly given the
lack of judicial or other guidance as to the
application of these terms to the format of
electronic filings. The Kinzys acted in good faith
by attempting to file 24 hours before the
deadline and were falsely told that their filing
would be accepted. They did not receive any
guidance as to how to properly file until the
deadline had passed.
Therefore, the petition for writ of certiorari
should be granted.

31

III:
THIS COURT SHOULD GRANT THE
PETITION FOR WRIT OF CERTIORARI TO
DETERMINE WHETHER ILLINOIS
STATUTE 735 ILCS 5/15-1309(c), WHICH
BARS ALL CLAIMS FOLLOWING A
CONFIRMATION OF JUDICIAL SALE IS
PREEMPTED BY FEDERAL BANKRUPTCY
LAWS, INCLUDING 11 U.S.C. SEC. 362
(THE AUTOMATIC STAY PROVISION) AND
SEC. 362(K) (WILLFUL VIOLATIONS OF
THE AUTOMATIC STAY)
Although the Illinois courts did not reach
the issue, properly raised below, as to whether
Illinois Statute 735 IlCS 5/15-1309(C), which
bars all claims following a confirmation of
judicial sale is preempted by federal bankruptcy
laws, including 11 U.S.C. Sec. 362 (the
automatic stay provision) And Sec. 362(K)
(willful violations of the automatic stay), this
court should grant the petition to consider the
issue and/or remand to the Illinois courts for
their resolution.

32

In the Illinois courts below, the Kinzys
filed a 2-1401 motion which alleged, in pertinent
part, that 735 ILCS 5/15-1309(c), which bars all
claims following a confirmation of judicial sale,
as interpreted by the appellate court decision in
Harris Bank, NA. v. Harris, 2015 IL App (lst)
133017 ¶ 47 is facially unconstitutional.
The motion argued, in pertinent part, that
§ 5/15-1309(c) was unconstitutional because it
was preempted by the federal bankruptcy laws.
The motion argued that the constitution
required the court to fashion a remedy which
would leave the in rem judgment in favor of the
innocent third party purchasers of the property
intact, while allowing the Kinzys the ability to
pursue their in personam counter claims for
money damages against First Tennessee. (S.R. I,
17-18).
The Illinois appellate court failed to reach
the merits of this argument because it found that
the Kinzys filing was untimely and because it
believed that this issue had been resolved in a
prior appeal. For the reasons given in Points I
and II, the first holding deprived the Kinzys of

33

due process. For the reasons given in this point
it deprived them of their constitutional rights
and was not barred by res judicata.
It is a familiar and well-established
principle that the Supremacy Clause, U.S.
Const., Art. VI, cl. 2, invalidates state laws that
"interfere with, or are contrary to," federal law.
Gibbons v. Ogden, 9 Wheat. 1, 211 (1824)
(Marshall, C. J.). Under the Supremacy Clause,
federal law may supersede state law in several
different ways.
First, when acting within constitutional
limits, Congress is empowered to pre-empt state
law by so stating in express terms. Jones v. Rath
Packing Co., 430 U.S. 519, 525 (1977). In the
absence of express pre-emptive language,
Congress' intent to preempt all state law in a
particular area may be inferred where the
scheme of federal regulation is sufficiently
comprehensive to make reasonable the inference
that Congress "left no room" for supplementary
state regulation. Rice v. Santa Fe Elevator
Corp., 331 U.S. 218, 230 (1947). Pre-emption of
a whole field also will be inferred where the field

34

is one in which "the federal interest is so
dominant that the federal system will be
assumed to preclude enforcement of state laws
on the same subject." 331 U.S. at 230. See Hines
v. Davidowitz, 312 U.S. 52 (1941).
Even where Congress has not completely
displaced state regulation in a specific area,
state law is nullified to the extent that it actually
conflicts with federal law. Such a conflict arises
when "compliance with both federal and state
regulations is a physical impossibility," Florida
Lime Avocado Growers, Inc. v. Paul, 373 U.S.
132, 142-143 (1963), or when state law "stands
as an obstacle to the accomplishment and
execution of the full purposes and objectives of
Congress," Hines, 312 U.S. at 67. See generally
Capital Cities Cable, Inc. v. Crisp, 467 U.S. 691,
698-699 (1984).
Here, 735 ILCS § 5/15-1309(c), and Illinois
Supreme Court Rule 301(k), as judicially
interpreted by Illinois courts, contravenes the
federal bankruptcy laws, see, e.g. 11 U.S.C. sec.
362 (the automatic stay provision) and sec.
362(k) (willful violations of the automatic stay),

35

and the Supremacy Clause because they stand
as an obstacle to the intent of the federal
bankruptcy laws by preventing debtors from
collecting in personam damages incurred in the
course of a foreclosure simply because a state
court has ordered a judicial sale.
This court should therefore grant the
petition for certiorari to resolve this issue or
direct the Illinois courts to address this issue on
remand.

36

CONCLUSION
For the foregoing reasons, the petition for
writ of certiorari should be granted.
Respectfully
submitted,
KYLE KINZY AND
JACKI KINZY
By:
/s/ Stephen L. Richards
Stephen L. Richards *
Joshua S.M. Richards
53 West Jackson, Suite 756
Chicago, IL 60604
Sricha5461@aol.com
Attorneys for the Petitioners Kyle Kinzy and
Jacki Kinzy
* Counsel of Record

1

TABLE OF CONTENTS OF APPENDIX
APPENDIX A (Order of the Illinois Supreme
Court Denying Petition for Leave to
Appeal)………………………………….………..…2
APPENDIX B (Order of the Illinois Appellate
Court for the Second District)…………..………3
APPENDIX C (Decision of Circuit Court)…...20
APPENDIX D
(Statutes and Rules Involved)………………...22

2

APPENDIX A

IN THE SUPREME COURT OF OILLINOIS
________________
No. 126521

FIRST TENNESSEE BANK, N.A.,
Plaintiff-Appellee,
-vsKYLE KINZY and JACKI KINZY,
Defendants-Appellants.
______________
[September 30, 2020]
______________

Disposition: Petition for leave to appeal
denied.

3

APPENDIX B
IN THE APPELLATE COURT OF ILLINOIS
SECOND DISTRICT
________________
No. 2–18–0799
FIRST TENNESSEE BANK, N.A. PlaintiffAppellee,
v.
KYLE KINZY and JACKI KINZY,
Defendants-Appellants.
2020 IL App (2d) 180799
______________
[May 28, 2020]
______________
ORDER

JUSTICE HUDSON delivered the judgment of
the court.

4

NOTICE: This order was filed under Supreme
Court Rule 23 and may not be cited as precedent
by any party except in the limited circumstances
allowed under Rule 23(e)(1).

Appeal from the Circuit Court of Lake County.

No. 09-CH-2632

Honorable Luis A. Berrones, Judge, Presiding.

JUSTICE HUDSON delivered the judgment of
the court.
Presiding Justice Birkett and Justice Bridges
concurred in the judgment.

ORDER
¶ 1 Held: Defendant's petition for relief from
judgment was moot in part and barred by res
judicata in part; additionally, defendants did not

5

present adequate record for appellate court to
conduct meaningful review; and defendants'
allegations of judicial bias were moot.

¶ 2 I. INTRODUCTION
¶ 3 Defendants, Kyle Kinzy and Jacki Kinzy,
appeal an order of the circuit court of Lake
County dismissing their petition for relief from
judgment (735 ILCS 5/2-1401 (West 2018)) for
want of jurisdiction. Defendants also press an
issue the trial court did not address after
determining it lacked jurisdiction: whether a
substitution was necessary due to the trial
judge's alleged bias.

Plaintiff, First Tennessee Bank, N.A., moves,
inter alia, that this appeal be dismissed. For the
reasons that follow, we affirm. We also dismiss
all outstanding motions.

¶ 4 II. BACKGROUND
¶ 5 The instant case is a collateral attack. The
underlying case resulted in an appeal that led to
our disposition in First Tennessee Bank, N.A. v.

6

Kinzy, 2016 IL App (2d) 160706-U (the 2016
appeal). In that case, defendants attempted to
appeal a confirmation order, which had been
entered on July 27, 2016, in a foreclosure
proceeding initiated against them by plaintiff.
We held that the appeal was moot because the
property at issue in the foreclosure proceeding
had been purchased by a third party. See Illinois
Supreme Court Rule 305(k) (eff. July 1, 2004).

¶ 6 Defendants attempted to initiate the current
action by filing their petition for relief from
judgment on July 26, 2018, the day before the
two-year deadline for filing a section 2-1401
petition expired. Defendants state that "[t]he
trial court's e-filing system (EFS) rejected that
submission because a few of the exhibits
exceeded the electronic file size restrictions."
They resubmitted the petition the next day—a
Friday—and received an email confirmation.
However, the following Monday, defendants
state, "[T]he Clerk of Court rejected the
submission on the basis that certain of the
exhibits were attached in landscape rather than
portrait format." Later that same day,
defendants resubmitted their petition, and it
was accepted.

7

¶ 7 The petition sought the following relief:

"WHEREFORE, this Court should grant the
Kinzys' Motion to Vacate and, pursuant to 5/21401, vacate the orders of this Court from Feb.
6, 2015, until the present; grant the Kinzys
fourteen (14) days to answer or otherwise plead
to the Third Amended Complaint; grant the
Kinzys an evidentiary hearing to prove forgery
and fraud and such other relief as this Court
deems just. In the alternative that this Court
deems it necessary
to preserve the in rem judgment against the
Property, the Kinzys respectfully request that
the judgments be vacated to allow the Kinzys to
pursue their in personam claims against First
Tennessee and third parties.
We note that defendants' notice of appeal, in
addition to the trial court's orders dismissing the
section 2-1401 petition, also lists a number of
orders entered by the trial court in the
underlying action, including the confirmation
order that was the subject of the previous appeal.

8

¶ 8 The trial court determined that the petition
was not timely filed and that it therefore lacked
jurisdiction to entertain the matter. Further,
defendants had also filed a motion to disqualify
the trial judge. The trial court found that it
lacked jurisdiction to consider this motion as
well. The report of proceedings from the day this
order was entered has not been made a part of
the record. Defendants now appeal to this court.

¶ 9 Plaintiff has filed a motion to dismiss this
appeal, which we ordered taken with the case.
Plaintiff advances three bases for dismissal.
First, it asserts that defendants are seeking to
reargue issues addressed in this court's
disposition of the 2016 appeal. Second, it
contends that this appeal, like the last one, is
moot. Third, it argues that we lack jurisdiction
to review the orders appealed. Plaintiff has also
filed a motion to strike the appendix to
defendants' response to plaintiffs' motion to
dismiss this appeal.

¶ 10 III. ANALYSIS
¶ 11 We will address three main issues here.
First, we will consider whether this appeal is

9

barred by various preclusive principles, namely,
the mootness doctrine and res judicata. Next, we
will address the propriety of the trial court's
order dismissing defendants' petition. Third, we
will address defendants' contention that the trial
court should have considered their motion for a
substitution of judges before it assessed whether
it had jurisdiction.

¶ 12 A. PRECLUSIVE PRINCIPLES
¶ 13 We will first consider the applicability of the
doctrines of mootness and res judicata to this
case. Both doctrines present questions of law
subject to de novo review. Lutkauskas v. Ricker,
2015 IL 117090, ¶ 43 (res judicata); In re Alfred
H.H., 233 Ill. 2d 345, 350 (2009) ( mootness).

¶ 14 As a preliminary matter, we note that a
portion of this case is moot. In the 2016 (First
Tennessee Bank, N.A., 2016 IL App (2d) 160706U), we held that this case was moot in
accordance with Illinois Supreme Court Rule
305(k) (eff. July 1, 2004), as the property that
was at issue in the underlying proceeding had
been sold to a third party. Defendants point out
that we need not follow an earlier decision if we

10

determine it is "palpably erroneous." See Norris
v. National Union Fire Insurance Co., 368 Ill.
App. 3d 576, 581 (2006). However, defendants
then go on to complain that the trial court did
not consider the merits of their 2-1401 petition;
attack a finding the trial court made regarding
their efforts to file the petition; assert that the
trial court did not address their motion to
disqualify the judge; argue the merits of the
underlying case; and complain of the trial court's
decision in the underlying case to grant a default
judgment against them. None of this has
anything to do with our decision in the 2016
appeal that this case became moot when the
subject property was sold to a third party. We
have no quarrel with the proposition that we
could reconsider our decision if we found it
palpably erroneous; however, defendants have
provided us with no basis to come to such a
conclusion.

¶ 15 In the previous appeal, defendants also
argued that the case was not moot because
"monetary damages would be sufficient and that
specific performance is not necessary to make
them whole." Id. ¶ 24. We rejected this argument
because defendants had only appealed the
confirmation order and our jurisdiction was

11

limited to reviewing that order. Id. Such claims
were not properly before us in the 2016 appeal.
However, defendants make no attempt to
explain why they could not have been raised at
that time.

¶ 16 Res judicata applies to claims that were or
could have been raised in an earlier proceeding.
See Stolfo v. KinderCare Learning Centers, Inc.,
2016 IL App (1st) 142396, ¶ 30 ("As the
arguments raised in Stolfo's section 2-1401
petition either were or could have been raised in
his unsuccessful direct appeal from the
November 2011 judgment, we agree with the
respondents that dismissal of the section 21401petition was warranted by res judicata.").
Thus, the mere fact that defendants did not raise
these claims in the earlier action does not allow
them to escape the preclusive effect of res
judicata.

¶ 17 The doctrine requires three elements: "(1)
that a court of competent jurisdiction rendered a
final judgment on the merits; (2) that there is an
identity of the parties or their privies; and (3)
that there is an identity of cause of action." Cload

12

v. West, 328 Ill. App. 3d 946, 949-50 (2002).
Clearly, the earlier action resulted in a final
judgment and the same parties are involved.
Further, there is an identity of cause of action
where the claims arise from the same group of
operative facts. Id. at 950. Here, defendants
alleged monetary claims all arise out of the same
set of operative facts as the foreclosure action.
Res judicata applies to matters that could have
been asserted in a counterclaim. CorcoranHakala v. Dowd, 362 Ill. App. 3d 523, 530-31
(2005).

¶ 18 Defendants assert that the judgment in the
underlying case is void. Res judicata generally
does not apply to void judgments. In re Marriage
of Hulstrom, 342 Ill. App. 3d 262, 270 (2003). A
void judgment is one entered by a court lacking
jurisdiction over the subject matter or parties.
Id. A judgment that is entered by a court of
competent jurisdiction is voidable if it is entered
erroneously. Id. Defendants advance three
arguments as to why the judgment may be void.
They contend that they were not provided with
due process. However, due process violations do
not

13

render a judgment void under Illinois law. See
People v. Hubbard, 2012 IL App (2d) 101158, ¶
22. Similarly, defendants assert that the failure
of both parties to sign the original mortgage
renders it void ab initio in accordance with
section 1c of the Joint Tenancy Act (765 ILCS
1005/1c (West 2008)). However, the failure to
follow a statute renders a judgment voidable
rather than void. Hulstrom, 342 Ill. App. 3d at
270-71. Moreover, we note that the statute, by
its own language, states that a mortgage against
a tenancy by the entirety is not "effective" rather
than it is "void." Finally, defendants assert that
the trial court violated the automatic stay of a
bankruptcy court. The earliest order identified
in defendant's notice of appeal is dated March
19, 2015. The stay in this case (actually, the
second stay, as defendants also filed a
bankruptcy petition in 2014) was lifted on March
7, 2015. Thus, none of the after-occurring orders
are void by virtue of the stay. Hence, defendants
have not identified a basis upon which any of the
orders they seek to undo are void.

¶ 19 Defendants make numerous assertions that
they are being denied due process and an

14

opportunity to be heard. However, they had
ample opportunity to present their substantive
claims. Following plaintiff's filing of their third
amended complaint, a date was set for
defendants to respond. Instead of answering the
complaint, defendants moved for and received an
extension to file their answer. On the extended
date, again, instead of answering, they sought
another extension. The trial court denied this
request; it was not required to grant it (Miller v.
Consolidated Rail Corp., 173 Ill. 2d 252, 260
(1996)). It was at this point in the proceedings
below that defendants had the opportunity to
advance their claims but did not do so as
required.

¶ 20 Defendants argue that res judicata does not
apply because the very purpose of a section 21401 petition is to undo a final judgment. While
true, there must be a legitimate basis for
undoing the judgment. Matters that were or
could have been argued in the underlying
proceeding do not constitute such a basis, as
explained above. See Stolfo, 2016 IL App (1st)
142396, ¶ 30.

15

Defendants have failed to identify a basis upon
which the trial court's earlier judgment could be
disturbed.

¶ 21 In sum, we hold that defendants' claims are
moot as they pertain to the subject property and
are otherwise barred by res judicata.

¶ 22 B. DISMISSAL
¶ 23 The trial court dismissed defendants'
petition for relief from judgment because it
found the petition untimely. By affidavit,
defendant (Kyle Kinzy) avers that defendants
initially attempted to file their petition on July
26, 2018, but it was rejected by the electronic
filing system because it was too big. The petition
was resubmitted on July 27, 2018 (the day it was
due), and defendants learned on July 30, 2018,
that it was again rejected because some of the
exhibits were in landscape rather than portrait
format. They successfully resubmitted the
petition the same day. Defendant further avers
that he spoke with the clerk of court, who
informed him that "the exhibits could not be

16

submitted in landscape format because the efile
system would rotate them into portrait format
and cause them to go beyond the margins of the
page." The trial court held that the petition was
untimely and dismissed it.

¶ 24 Illinois Supreme Court Rule 9 (eff. January
1, 2018) governs electronic filings in the circuit
courts. The rule provides two savings provisions
for petitions that were not timely filed. A party
may seek relief where the untimely filing was
caused by "any court-approved electronic filing
system technical failure" or for "good cause
shown." Id. The former encompasses " 'a
malfunction of the e-filing provider's or the
Court's
hardware,
software,
and
or
telecommunications facility which results in the
inability of a registered user to submit a
document electronically. It does not include the
failure of a user's equipment.' " Peraino v.
County of Winnebago, 2018 IL App (2d) 170368,
¶ 22 (quoting Ill. S. Ct., M.R. § 2(h) (eff. Feb. 3,
2014)).

17

¶ 25 Here, defendants assert that it was a
technical failure of the electronic filing system to
rotate documents to a portrait orientation. It is
unclear to us whether this is a technical failure
at all. It is common knowledge that court records
(both common law records and reports of
proceedings) are stored in a portrait orientation.
Thus, the trial court could have determined that
this was something defendants should have been
aware of and accounted for when they filed their
petition. It further could have determined that
this was a failing of defendants rather than the
electronic filing system.

¶ 26 However, we do not know what the trial
court determined because a transcript of the
hearing during which the trial court dismissed
defendants' 2-1401 petition has not been made a
part of the record. It is the appellant's burden to
provide a complete record. In re Estate of
Jackson, 354 Ill. App. 3d 616, 620 (2004). Where
the record is lacking, we must presume the trial
court's ruling conformed with the law and had
an adequate factual basis. Id. This provides an
alternate basis to affirm the trial court's
judgment.

18

¶ 27 C. MOTION TO DISQUALIFY
¶ 28 Defendants also contend that the trial judge
should have addressed their recusal motion
before considering its jurisdiction. This issue is
moot. The first issues we addressed (mootness
and res judicata) present questions of law and
are subject to de novo review. The second issue
was resolved in reliance on a presumption rather
than on any finding of the trial court. In similar
circumstances, the Fifth District explained:

"Lastly, although nothing suggests that the trial
court's judgments were improperly influenced,
because all of the issues raised in the plaintiff's
present appeals are reviewed de novo, "we
perform the same analysis a trial court would
perform and give no deference to the judge's
conclusions or specific rationale.' Bituminous
Casualty Corp. v. Iles, 2013
IL App (5th) 120485, ¶ 19. 'The term "de novo"
means that the court reviews the matter anewthe same as if the case had not been heard before
and as if no decision had been rendered
previously.' Ryan v. Yarbrough, 355 Ill.App.3d
342, 346 (2005)."

19

Thus, assuming, arguendo, defendants' motion
is well founded, defendants have suffered no
prejudice as we have resolved this appeal
independently.

¶ 29 IV. CONCLUSION
¶ 30 In light of the foregoing, the judgment of the
circuit court of Lake County is affirmed. All
outstanding motions are dismissed.

¶ 31 Affirmed.

20

APPENDIX C
IN THE CIRCUIT COURT OF THE
NINETEENTH JUDICIAL CIRCUIT
LAKE COUNTY, ILLINOIS
_____________________
No. 09-CH-2632
_____________________
[August 15, 2018]
_____________________
ORDER
This matter coming to be heard on the
Kinzy’s Motion to Vacate under Section 5/2-1401
and the Kinzys’ Motion for Substitution Recusal
or Disqualification of Judge for Cause, counsel
for Plaintiff and the Kinzys present and the
Court being fully advised in the premises:
IT IS HEREBY ORDERED:
(1) The Court finds it lacks jurisdiction to hear
the 2-1401 petition because it was filed 2
years after the Order confirming Sale was
entered on July 27, 2016. Therefore, the
petition is denied.
(2) Additionally the Court finds the 2-1401

21

Petition was not in the proper form and
therefore it is stricken.
(3) The Court does not have jurisdiction to
hear the Motion to Substitute Judge
because the Court does not have
jurisdiction over the matter.
ENTER:
Luis A. Berrones
_______________
Judge

22

APPENDIX D – STATUTES AND RULES
INVOLVED

23

11 U.S.C. Sec. 362:
a) Except as provided in subsection (b) of
this section, a petition filed under section
301, 302, or 303 of this title, or an
application filed under section 5(a)(3) of
the Securities Investor Protection Act of
1970, operates as a stay, applicable to all
entities, of(1) the commencement or continuation,
including the issuance or employment of
process, of a judicial, administrative, or
other action or proceeding against the
debtor that was or could have been
commenced before the commencement of
the case under this title, or to recover a
claim against the debtor that arose before
the commencement of the case under this
title;
(2) the enforcement, against the debtor or
against property of the estate, of a
judgment obtained before the
commencement of the case under this
title;
(3) any act to obtain possession of
property of the estate or of property from
the estate or to exercise control over
property of the estate;
(4) any act to create, perfect, or enforce

24

any lien against property of the estate;
(5) any act to create, perfect, or enforce
against property of the debtor any lien to
the extent that such lien secures a claim
that arose before the commencement of
the case under this title;
(6) any act to collect, assess, or recover a
claim against the debtor that arose before
the commencement of the case under this
title;
(7) the setoff of any debt owing to the
debtor that arose before the
commencement of the case under this title
against any claim against the debtor; and
(8) the commencement or continuation of
a proceeding before the United States Tax
Court concerning a tax liability of a debtor
that is a corporation for a taxable period
the bankruptcy court may determine or
concerning the tax liability of a debtor
who is an individual for a taxable period
ending before the date of the order for
relief under this title.
***
section, of the exercise by a repo
participant or financial participant of any
contractual right (as defined in section

25

559) under any security agreement or
arrangement or other credit enhancement
forming a part of or related to any
repurchase agreement, or of any
contractual right (as defined in section
559) to offset or net out any termination
value, payment amount, or other transfer
obligation arising under or in connection
with 1 or more such agreements,
including any master agreement for such
agreements;
(8) under subsection (a) of this section, of
the commencement of any action by the
Secretary of Housing and Urban
Development to foreclose a mortgage or
deed of trust in any case in which the
mortgage or deed of trust held by the
Secretary is insured or was formerly
insured under the National Housing Act
and covers property, or combinations of
property, consisting of five or more living
units;
(9) under subsection (a), of(A) an audit by a governmental unit to
determine tax liability;
(B) the issuance to the debtor by a
governmental unit of a notice of tax
deficiency;
(C) a demand for tax returns; or

26

(D) the making of an assessment for any
tax and issuance of a notice and demand
for payment of such an assessment (but
any tax lien that would otherwise attach
to property of the estate by reason of such
an assessment shall not take effect unless
such tax is a debt of the debtor that will
not be discharged in the case and such
property or its proceeds are transferred
out of the estate to, or otherwise revested
in, the debtor).
(10) under subsection (a) of this section, of
any act by a lessor to the debtor under a
lease of nonresidential real property that
has terminated by the expiration of the
stated term of the lease before the
commencement of or during a case under
this title to obtain possession of such
property;
(11) under subsection (a) of this section, of
the presentment of a negotiable
instrument and the giving of notice of and
protesting dishonor of such an
instrument;
(12) under subsection (a) of this section,
after the date which is 90 days after the
filing of such petition, of the
commencement or continuation, and
conclusion to the entry of final judgment,

27

of an action which involves a debtor
subject to reorganization pursuant to
chapter 11 of this title and which was
brought by the Secretary of
Transportation under section 31325 of
title 46 (including distribution of any
proceeds of sale) to foreclose a preferred
ship or fleet mortgage, or a security
interest in or relating to a vessel or vessel
under construction, held by the Secretary
of Transportation under chapter 537 of
title 46 or section 109(h) of title 49, or
under applicable State law;
(13) under subsection (a) of this section,
after the date which is 90 days after the
filing of such petition, of the
commencement or continuation, and
conclusion to the entry of final judgment,
of an action which involves a debtor
subject to reorganization pursuant to
chapter 11 of this title and which was
brought by the Secretary of Commerce
under section 31325 of title 46 (including
distribution of any proceeds of sale) to
foreclose a preferred ship or fleet
mortgage in a vessel or a mortgage, deed
of trust, or other security interest in a
fishing facility held by the Secretary of
Commerce under chapter 537 of title 46;

28

(14) under subsection (a) of this section, of
any action by an accrediting agency
regarding the accreditation status of the
debtor as an educational institution;
(15) under subsection (a) of this section, of
any action by a State licensing body
regarding the licensure of the debtor as an
educational institution;
(16) under subsection (a) of this section, of
any action by a guaranty agency, as
defined in section 435(j) of the Higher
Education Act of 1965 or the Secretary of
Education regarding the eligibility of the
debtor to participate in programs
authorized under such Act;
(17) under subsection (a) of this section, of
the exercise by a swap participant or
financial participant of any contractual
right (as defined in section 560) under any
security agreement or arrangement or
other credit enhancement forming a part
of or related to any swap agreement, or of
any contractual right (as defined in
section 560) to offset or net out any
termination value, payment amount, or
other transfer obligation arising under or
in connection with 1 or more such
agreements, including any master
agreement for such agreements;

29

(18) under subsection (a) of the creation or
perfection of a statutory lien for an ad
valorem property tax, or a special tax or
special assessment on real property
whether or not ad valorem, imposed by a
governmental unit, if such tax or
assessment comes due after the date of
the filing of the petition;
(19) under subsection (a), of withholding
of income from a debtor's wages and
collection of amounts withheld, under the
debtor's agreement authorizing that
withholding and collection for the benefit
of a pension, profit-sharing, stock bonus,
or other plan established under section
401, 403, 408, 408A, 414, 457, or 501(c) of
the Internal Revenue Code of 1986, that is
sponsored by the employer of the debtor,
or an affiliate, successor, or predecessor of
such employer(A) to the extent that the amounts
withheld and collected are used solely for
payments relating to a loan from a plan
under section 408(b)(1) of the Employee
Retirement Income Security Act of 1974
or is subject to section 72(p) of the
Internal Revenue Code of 1986; or
(B) a loan from a thrift savings plan
permitted under subchapter III of chapter

30

84 of title 5, that satisfies the
requirements of section 8433(g) of such
title;
but nothing in this paragraph may be
construed to provide that any loan made
under a governmental plan under section
414(d), or a contract or account under
section 403(b), of the Internal Revenue
Code of 1986 constitutes a claim or a debt
under this title;
(20) under subsection (a), of any act to
enforce any lien against or security
interest in real property following entry of
the order under subsection (d)(4) as to
such real property in any prior case under
this title, for a period of 2 years after the
date of the entry of such an order, except
that the debtor, in a subsequent case
under this title, may move for relief from
such order based upon changed
circumstances or for other good cause
shown, after notice and a hearing;
(21) under subsection (a), of any act to
enforce any lien against or security
interest in real property(A) if the debtor is ineligible under section
109(g) to be a debtor in a case under this
title; or

31

(B) if the case under this title was filed in
violation of a bankruptcy court order in a
prior case under this title prohibiting the
debtor from being a debtor in another case
under this title;
(22) subject to subsection (l), under
subsection (a)(3), of the continuation of
any eviction, unlawful detainer action, or
similar proceeding by a lessor against a
debtor involving residential property in
which the debtor resides as a tenant
under a lease or rental agreement and
with respect to which the lessor has
obtained before the date of the filing of the
bankruptcy petition, a judgment for
possession of such property against the
debtor;
(23) subject to subsection (m), under
subsection (a)(3), of an eviction action that
seeks possession of the residential
property in which the debtor resides as a
tenant under a lease or rental agreement
based on endangerment of such property
or the illegal use of controlled substances
on such property, but only if the lessor
files with the court, and serves upon the
debtor, a certification under penalty of
perjury that such an eviction action has
been filed, or that the debtor, during the

32

30-day period preceding the date of the
filing of the certification, has endangered
property or illegally used or allowed to be
used a controlled substance on the
property;
(24) under subsection (a), of any transfer
that is not avoidable under section 544
and that is not avoidable under section
549;
(25) under subsection (a), of(A) the commencement or continuation of
an investigation or action by a securities
self regulatory organization to enforce
such organization's regulatory power;
(B) the enforcement of an order or
decision, other than for monetary
sanctions, obtained in an action by such
securities self regulatory organization to
enforce such organization's regulatory
power; or
(C) any act taken by such securities self
regulatory organization to delist, delete,
or refuse to permit quotation of any stock
that does not meet applicable regulatory
requirements;
(26) under subsection (a), of the setoff
under applicable nonbankruptcy law of an
income tax refund, by a governmental
unit, with respect to a taxable period that

33

ended before the date of the order for
relief against an income tax liability for a
taxable period that also ended before the
date of the order for relief, except that in
any case in which the setoff of an income
tax refund is not permitted under
applicable nonbankruptcy law because of
a pending action to determine the amount
or legality of a tax liability, the
governmental unit may hold the refund
pending the resolution of the action,
unless the court, on the motion of the
trustee and after notice and a hearing,
grants the taxing authority adequate
protection (within the meaning of section
361) for the secured claim of such
authority in the setoff under section
506(a);
(27) under subsection (a) of this section, of
the exercise by a master netting
agreement participant of any contractual
right (as defined in section 555, 556, 559,
or 560) under any security agreement or
arrangement or other credit enhancement
forming a part of or related to any master
netting agreement, or of any contractual
right (as defined in section 555, 556, 559,
or 560) to offset or net out any
termination value, payment amount, or

34

other transfer obligation arising under or
in connection with 1 or more such master
netting agreements to the extent that
such participant is eligible to exercise
such rights under paragraph (6), (7), or
(17) for each individual contract covered
by the master netting agreement in issue;
(28) under subsection (a), of the exclusion
by the Secretary of Health and Human
Services of the debtor from participation
in the medicare program or any other
Federal health care program (as defined
in section 1128B(f) of the Social Security
Act pursuant to title XI or XVIII of such
Act); and
(29) under subsection (a)(1) of this section,
of any action by(A) an amateur sports organization, as
defined in section 220501(b) of title 36, to
replace a national governing body, as
defined in that section, under section
220528 of that title; or
(B) the corporation, as defined in section
220501(b) of title 36, to revoke the
certification of a national governing body,
as defined in that section, under section
220521 of that title.
The provisions of paragraphs (12) and (13)
of this subsection shall apply with respect

35

to any such petition filed on or before
December 31, 1989.
(c) Except as provided in subsections (d),
(e), (f), and (h) of this section(1) the stay of an act against property of
the estate under subsection (a) of this
section continues until such property is no
longer property of the estate;
(2) the stay of any other act under
subsection (a) of this section continues
until the earliest of(A) the time the case is closed;
(B) the time the case is dismissed; or
(C) if the case is a case under chapter 7 of
this title concerning an individual or a
case under chapter 9, 11, 12, or 13 of this
title, the time a discharge is granted or
denied;
(3) if a single or joint case is filed by or
against a debtor who is an individual in a
case under chapter 7, 11, or 13, and if a
single or joint case of the debtor was
pending within the preceding 1-year
period but was dismissed, other than a
case refiled under a chapter other than
chapter 7 after dismissal under section
707(b)(A) the stay under subsection (a) with

36

respect to any action taken with respect to
a debt or property securing such debt or
with respect to any lease shall terminate
with respect to the debtor on the 30th day
after the filing of the later case;
(B) on the motion of a party in interest for
continuation of the automatic stay and
upon notice and a hearing, the court may
extend the stay in particular cases as to
any or all creditors (subject to such
conditions or limitations as the court may
then impose) after notice and a hearing
completed before the expiration of the 30day period only if the party in interest
demonstrates that the filing of the later
case is in good faith as to the creditors to
be stayed; and
(C) for purposes of subparagraph (B), a
case is presumptively filed not in good
faith (but such presumption may be
rebutted by clear and convincing evidence
to the contrary)(i) as to all creditors, if(I) more than 1 previous case under any of
chapters 7, 11, and 13 in which the
individual was a debtor was pending
within the preceding 1-year period;
(II) a previous case under any of chapters
7, 11, and 13 in which the individual was

37

a debtor was dismissed within such 1-year
period, after the debtor failed to(aa) file or amend the petition or other
documents as required by this title or the
court without substantial excuse (but
mere inadvertence or negligence shall not
be a substantial excuse unless the
dismissal was caused by the negligence of
the debtor's attorney);
(bb) provide adequate protection as
ordered by the court; or
(cc) perform the terms of a plan confirmed
by the court; or
(III) there has not been a substantial
change in the financial or personal affairs
of the debtor since the dismissal of the
next most previous case under chapter 7,
11, or 13 or any other reason to conclude
that the later case will be concluded(aa) if a case under chapter 7, with a
discharge; or
(bb) if a case under chapter 11 or 13, with
a confirmed plan that will be fully
performed; and
(ii) as to any creditor that commenced an
action under subsection (d) in a previous
case in which the individual was a debtor
if, as of the date of dismissal of such case,
that action was still pending or had been

38

resolved by terminating, conditioning, or
limiting the stay as to actions of such
creditor; and
(4)
(A)
(i) if a single or joint case is filed by or
against a debtor who is an individual
under this title, and if 2 or more single or
joint cases of the debtor were pending
within the previous year but were
dismissed, other than a case refiled under
a chapter other than chapter 7 after
dismissal under section 707(b), the stay
under subsection (a) shall not go into
effect upon the filing of the later case; and
(ii) on request of a party in interest, the
court shall promptly enter an order
confirming that no stay is in effect;
(B) if, within 30 days after the filing of the
later case, a party in interest requests the
court may order the stay to take effect in
the case as to any or all creditors (subject
to such conditions or limitations as the
court may impose), after notice and a
hearing, only if the party in interest
demonstrates that the filing of the later
case is in good faith as to the creditors to
be stayed;
(C) a stay imposed under subparagraph

39

(B) shall be effective on the date of the
entry of the order allowing the stay to go
into effect; and
(D) for purposes of subparagraph (B), a
case is presumptively filed not in good
faith (but such presumption may be
rebutted by clear and convincing evidence
to the contrary)(i) as to all creditors if(I) 2 or more previous cases under this
title in which the individual was a debtor
were pending within the 1-year period;
(II) a previous case under this title in
which the individual was a debtor was
dismissed within the time period stated in
this paragraph after the debtor failed to
file or amend the petition or other
documents as required by this title or the
court without substantial excuse (but
mere inadvertence or negligence shall not
be substantial excuse unless the dismissal
was caused by the negligence of the
debtor's attorney), failed to provide
adequate protection as ordered by the
court, or failed to perform the terms of a
plan confirmed by the court; or
(III) there has not been a substantial
change in the financial or personal affairs
of the debtor since the dismissal of the

40

next most previous case under this title,
or any other reason to conclude that the
later case will not be concluded, if a case
under chapter 7, with a discharge, and if a
case under chapter 11 or 13, with a
confirmed plan that will be fully
performed; or
(ii) as to any creditor that commenced an
action under subsection (d) in a previous
case in which the individual was a debtor
if, as of the date of dismissal of such case,
such action was still pending or had been
resolved by terminating, conditioning, or
limiting the stay as to such action of such
creditor.
(d) On request of a party in interest and
after notice and a hearing, the court shall
grant relief from the stay provided under
subsection (a) of this section, such as by
terminating, annulling, modifying, or
conditioning such stay(1) for cause, including the lack of
adequate protection of an interest in
property of such party in interest;
(2) with respect to a stay of an act against
property under subsection (a) of this
section, if(A) the debtor does not have an equity in
such property; and

41

(B) such property is not necessary to an
effective reorganization;
(3) with respect to a stay of an act against
single asset real estate under subsection
(a), by a creditor whose claim is secured
by an interest in such real estate, unless,
not later than the date that is 90 days
after the entry of the order for relief (or
such later date as the court may
determine for cause by order entered
within that 90-day period) or 30 days after
the court determines that the debtor is
subject to this paragraph, whichever is
later(A) the debtor has filed a plan of
reorganization that has a reasonable
possibility of being confirmed within a
reasonable time; or
(B) the debtor has commenced monthly
payments that(i) may, in the debtor's sole discretion,
notwithstanding section 363(c)(2), be
made from rents or other income
generated before, on, or after the date of
the commencement of the case by or from
the property to each creditor whose claim
is secured by such real estate (other than
a claim secured by a judgment lien or by
an unmatured statutory lien); and

42

(ii) are in an amount equal to interest at
the then applicable nondefault contract
rate of interest on the value of the
creditor's interest in the real estate; or
(4) with respect to a stay of an act against
real property under subsection (a), by a
creditor whose claim is secured by an
interest in such real property, if the court
finds that the filing of the petition was
part of a scheme to delay, hinder, or
defraud creditors that involved either(A) transfer of all or part ownership of, or
other interest in, such real property
without the consent of the secured
creditor or court approval; or
(B) multiple bankruptcy filings affecting
such real property.
If recorded in compliance with applicable
State laws governing notices of interests
or liens in real property, an order entered
under paragraph (4) shall be binding in
any other case under this title purporting
to affect such real property filed not later
than 2 years after the date of the entry of
such order by the court, except that a
debtor in a subsequent case under this
title may move for relief from such order
based upon changed circumstances or for
good cause shown, after notice and a

43

hearing. Any Federal, State, or local
governmental unit that accepts notices of
interests or liens in real property shall
accept any certified copy of an order
described in this subsection for indexing
and recording.
(e)
(1) Thirty days after a request under
subsection (d) of this section for relief
from the stay of any act against property
of the estate under subsection (a) of this
section, such stay is terminated with
respect to the party in interest making
such request, unless the court, after notice
and a hearing, orders such stay continued
in effect pending the conclusion of, or as a
result of, a final hearing and
determination under subsection (d) of this
section. A hearing under this subsection
may be a preliminary hearing, or may be
consolidated with the final hearing under
subsection (d) of this section. The court
shall order such stay continued in effect
pending the conclusion of the final
hearing under subsection (d) of this
section if there is a reasonable likelihood
that the party opposing relief from such
stay will prevail at the conclusion of such

44

final hearing. If the hearing under this
subsection is a preliminary hearing, then
such final hearing shall be concluded not
later than thirty days after the conclusion
of such preliminary hearing, unless the
30-day period is extended with the
consent of the parties in interest or for a
specific time which the court finds is
required by compelling circumstances.
(2) Notwithstanding paragraph (1), in a
case under chapter 7, 11, or 13 in which
the debtor is an individual, the stay under
subsection (a) shall terminate on the date
that is 60 days after a request is made by
a party in interest under subsection (d),
unless(A) a final decision is rendered by the
court during the 60-day period beginning
on the date of the request; or
(B) such 60-day period is extended(i) by agreement of all parties in interest;
or
(ii) by the court for such specific period of
time as the court finds is required for good
cause, as described in findings made by
the court.
(f) Upon request of a party in interest, the
court, with or without a hearing, shall
grant such relief from the stay provided

45

under subsection (a) of this section as is
necessary to prevent irreparable damage
to the interest of an entity in property, if
such interest will suffer such damage
before there is an opportunity for notice
and a hearing under subsection (d) or (e)
of this section.
(g) In any hearing under subsection (d) or
(e) of this section concerning relief from
the stay of any act under subsection (a) of
this section(1) the party requesting such relief has
the burden of proof on the issue of the
debtor's equity in property; and
(2) the party opposing such relief has the
burden of proof on all other issues.
(h)
(1) In a case in which the debtor is an
individual, the stay provided by
subsection (a) is terminated with respect
to personal property of the estate or of the
debtor securing in whole or in part a
claim, or subject to an unexpired lease,
and such personal property shall no
longer be property of the estate if the
debtor fails within the applicable time set
by section 521(a)(2)(A) to file timely any statement of
intention required under section 521(a)(2)

46

with respect to such personal property or
to indicate in such statement that the
debtor will either surrender such personal
property or retain it and, if retaining such
personal property, either redeem such
personal property pursuant to section 722,
enter into an agreement of the kind
specified in section 524(c) applicable to
the debt secured by such personal
property, or assume such unexpired lease
pursuant to section 365(p) if the trustee
does not do so, as applicable; and
(B) to take timely the action specified in
such statement, as it may be amended
before expiration of the period for taking
action, unless such statement specifies the
debtor's intention to reaffirm such debt on
the original contract terms and the
creditor refuses to agree to the
reaffirmation on such terms.
(2) Paragraph (1) does not apply if the
court determines, on the motion of the
trustee filed before the expiration of the
applicable time set by section 521(a)(2),
after notice and a hearing, that such
personal property is of consequential
value or benefit to the estate, and orders
appropriate adequate protection of the
creditor's interest, and orders the debtor

47

to deliver any collateral in the debtor's
possession to the trustee. If the court does
not so determine, the stay provided by
subsection (a) shall terminate upon the
conclusion of the hearing on the motion.
(i) If a case commenced under chapter 7,
11, or 13 is dismissed due to the creation
of a debt repayment plan, for purposes of
subsection (c)(3), any subsequent case
commenced by the debtor under any such
chapter shall not be presumed to be filed
not in good faith.
(j) On request of a party in interest, the
court shall issue an order under
subsection (c) confirming that the
automatic stay has been terminated.
(k)
(1) Except as provided in paragraph (2),
an individual injured by any willful
violation of a stay provided by this section
shall recover actual damages, including
costs and attorneys' fees, and, in
appropriate circumstances, may recover
punitive damages.
(2) If such violation is based on an action
taken by an entity in the good faith belief
that subsection (h) applies to the debtor,
the recovery under paragraph (1) of this
subsection against such entity shall be

48

limited to actual damages.
(l)
(1) Except as otherwise provided in this
subsection, subsection (b)(22) shall apply
on the date that is 30 days after the date
on which the bankruptcy petition is filed,
if the debtor files with the petition and
serves upon the lessor a certification
under penalty of perjury that(A) under nonbankruptcy law applicable
in the jurisdiction, there are
circumstances under which the debtor
would be permitted to cure the entire
monetary default that gave rise to the
judgment for possession, after that
judgment for possession was entered; and
(B) the debtor (or an adult dependent of
the debtor) has deposited with the clerk of
the court, any rent that would become due
during the 30-day period after the filing of
the bankruptcy petition.
(2) If, within the 30-day period after the
filing of the bankruptcy petition, the
debtor (or an adult dependent of the
debtor) complies with paragraph (1) and
files with the court and serves upon the
lessor a further certification under
penalty of perjury that the debtor (or an
adult dependent of the debtor) has cured,

49

under nonbankruptcy law applicable in
the jurisdiction, the entire monetary
default that gave rise to the judgment
under which possession is sought by the
lessor, subsection (b)(22) shall not apply,
unless ordered to apply by the court under
paragraph (3).
(3)
(A) If the lessor files an objection to any
certification filed by the debtor under
paragraph (1) or (2), and serves such
objection upon the debtor, the court shall
hold a hearing within 10 days after the
filing and service of such objection to
determine if the certification filed by the
debtor under paragraph (1) or (2) is true.
(B) If the court upholds the objection of
the lessor filed under subparagraph (A)(i) subsection (b)(22) shall apply
immediately and relief from the stay
provided under subsection (a)(3) shall not
be required to enable the lessor to
complete the process to recover full
possession of the property; and
(ii) the clerk of the court shall
immediately serve upon the lessor and the
debtor a certified copy of the court's order
upholding the lessor's objection.
(4) If a debtor, in accordance with

50

paragraph (5), indicates on the petition
that there was a judgment for possession
of the residential rental property in which
the debtor resides and does not file a
certification under paragraph (1) or (2)(A) subsection (b)(22) shall apply
immediately upon failure to file such
certification, and relief from the stay
provided under subsection (a)(3) shall not
be required to enable the lessor to
complete the process to recover full
possession of the property; and
(B) the clerk of the court shall
immediately serve upon the lessor and the
debtor a certified copy of the docket
indicating the absence of a filed
certification and the applicability of the
exception to the stay under subsection
(b)(22).
(5)
(A) Where a judgment for possession of
residential property in which the debtor
resides as a tenant under a lease or rental
agreement has been obtained by the
lessor, the debtor shall so indicate on the
bankruptcy petition and shall provide the
name and address of the lessor that
obtained that pre-petition judgment on
the petition and on any certification filed

51

under this subsection.
(B) The form of certification filed with the
petition, as specified in this subsection,
shall provide for the debtor to certify, and
the debtor shall certify(i) whether a judgment for possession of
residential rental housing in which the
debtor resides has been obtained against
the debtor before the date of the filing of
the petition; and
(ii) whether the debtor is claiming under
paragraph (1) that under nonbankruptcy
law applicable in the jurisdiction, there
are circumstances under which the debtor
would be permitted to cure the entire
monetary default that gave rise to the
judgment for possession, after that
judgment of possession was entered, and
has made the appropriate deposit with the
court.
(C) The standard forms (electronic and
otherwise) used in a bankruptcy
proceeding shall be amended to reflect the
requirements of this subsection.
(D) The clerk of the court shall arrange for
the prompt transmittal of the rent
deposited in accordance with paragraph
(1)(B) to the lessor.
(m)

52

(1) Except as otherwise provided in this
subsection, subsection (b)(23) shall apply
on the date that is 15 days after the date
on which the lessor files and serves a
certification described in subsection
(b)(23).
(2)
(A) If the debtor files with the court an
objection to the truth or legal sufficiency
of the certification described in subsection
(b)(23) and serves such objection upon the
lessor, subsection (b)(23) shall not apply,
unless ordered to apply by the court under
this subsection.
(B) If the debtor files and serves the
objection under subparagraph (A), the
court shall hold a hearing within 10 days
after the filing and service of such
objection to determine if the situation
giving rise to the lessor's certification
under paragraph (1) existed or has been
remedied.
(C) If the debtor can demonstrate to the
satisfaction of the court that the situation
giving rise to the lessor's certification
under paragraph (1) did not exist or has
been remedied, the stay provided under
subsection (a)(3) shall remain in effect
until the termination of the stay under

53

this section.
(D) If the debtor cannot demonstrate to
the satisfaction of the court that the
situation giving rise to the lessor's
certification under paragraph (1) did not
exist or has been remedied(i) relief from the stay provided under
subsection (a)(3) shall not be required to
enable the lessor to proceed with the
eviction; and
(ii) the clerk of the court shall
immediately serve upon the lessor and the
debtor a certified copy of the court's order
upholding the lessor's certification.
(3) If the debtor fails to file, within 15
days, an objection under paragraph (2)(A)(A) subsection (b)(23) shall apply
immediately upon such failure and relief
from the stay provided under subsection
(a)(3) shall not be required to enable the
lessor to complete the process to recover
full possession of the property; and
(B) the clerk of the court shall
immediately serve upon the lessor and the
debtor a certified copy of the docket
indicating such failure.
(n)
(1) Except as provided in paragraph (2),
subsection (a) does not apply in a case in

54

which the debtor(A) is a debtor in a small business case
pending at the time the petition is filed;
(B) was a debtor in a small business case
that was dismissed for any reason by an
order that became final in the 2-year
period ending on the date of the order for
relief entered with respect to the petition;
(C) was a debtor in a small business case
in which a plan was confirmed in the 2year period ending on the date of the
order for relief entered with respect to the
petition; or
(D) is an entity that has acquired
substantially all of the assets or business
of a small business debtor described in
subparagraph (A), (B), or (C), unless such
entity establishes by a preponderance of
the evidence that such entity acquired
substantially all of the assets or business
of such small business debtor in good faith
and not for the purpose of evading this
paragraph.
(2) Paragraph (1) does not apply(A) to an involuntary case involving no
collusion by the debtor with creditors; or
(B) to the filing of a petition if(i) the debtor proves by a preponderance
of the evidence that the filing of the

55

petition resulted from circumstances
beyond the control of the debtor not
foreseeable at the time the case then
pending was filed; and
(ii) it is more likely than not that the court
will confirm a feasible plan, but not a
liquidating plan, within a reasonable
period of time.
(o) The exercise of rights not subject to the
stay arising under subsection (a) pursuant
to paragraph (6), (7), (17), or (27) of
subsection (b) shall not be stayed by any
order of a court or administrative agency
in any proceeding under this title.

56

735 ILCS § 5/2-401:
(a) Relief from final orders and judgments,
after 30 days from the entry thereof, may
be had upon petition as provided in this
Section. Writs of error coram nobis and
coram vobis, bills of review and bills in the
nature of bills of review are abolished. All
relief heretofore obtainable and the
grounds for such relief heretofore
available, whether by any of the foregoing
remedies or otherwise, shall be available in
every case, by proceedings hereunder,
regardless of the nature of the order or
judgment from which relief is sought or of
the proceedings in which it was entered.
Except as provided in the Illinois
Parentage Act of 2015, there shall be no
distinction between actions and other
proceedings, statutory or otherwise, as to
availability of relief, grounds for relief or
the relief obtainable.
(b) The petition must be filed in the same
proceeding in which the order or judgment
was entered but is not a continuation
thereof. The petition must be supported by
affidavit or other appropriate showing as to

57

matters not of record. A petition to reopen
a foreclosure proceeding must include as
parties to the petition, but is not limited to,
all parties in the original action in addition
to the current record title holders of the
property, current occupants, and any
individual or entity that had a recorded
interest in the property before the filing of
the petition. All parties to the petition shall
be notified as provided by rule.
(c) Except as provided in Section 20b of the
Adoption Act and Section 2-32 of the
Juvenile Court Act of 1987 or in a petition
based upon Section 116-3 of the Code of
Criminal Procedure of 1963 or subsection
(b-10) of this Section, the petition must be
filed not later than 2 years after the entry
of the order or judgment. Time during
which the person seeking relief is under
legal disability or duress or the ground for
relief is fraudulently concealed shall be
excluded in computing the period of 2
years.

58

735 ILCS § 5/15-1309 (C):
(c) Claims Barred. Any vesting of title by a
consent foreclosure pursuant to Section 151402 or by deed pursuant to subsection (b)
of Section 15-1509, unless otherwise
specified in the judgment of foreclosure,
shall be an entire bar of (i) all claims of
parties to the foreclosure and (ii) all claims
of any nonrecord claimant who is given
notice of the foreclosure in accordance with
paragraph (2) of subsection (c) of Section
15-1502, notwithstanding the provisions of
subsection (g) of Section 2-1301 to the
contrary. Any person seeking relief from
any judgment or order entered in the
foreclosure in accordance with subsection
(g) of Section 2-1301 of the Code of Civil
Procedure may claim only an interest in
the proceeds of sale.

59

Illinois Supreme Court, Rule 9:
(a) Electronic Filing Required. Unless
exempt as provided in paragraph (c), all
documents in civil cases shall be
electronically filed with the clerk of court
using an electronic filing system approved
by the Supreme Court of Illinois.
(b)Personal Identity Information. If filing a
document that contains Social Security
numbers as provided in Rule 15 or personal
identity information as defined in Rules
138 or 364, the filer shall adhere to the
procedures outlined in Rules 15, 138, and
364.
(c)Exemptions. The following types of
documents in civil cases are exempt from
electronic filing:
(1) Documents filed by a self-represented
litigant incarcerated in a local jail or
correctional facility at the time of the
filing;
(2) Wills;
(3) Documents filed under the Juvenile
Court Act of 1987;
(4) Documents filed by a person with a
disability, as defined by the Americans

60

with Disabilities Act of 1990, whose
disability prevents e-filing; and
(5) Documents in a specific case upon good
cause shown by certification. Good cause
exists where a self-represented litigant is
not able to e-file documents for the
following reasons:
(i) no computer or Internet access in the
home and travel represents a hardship;
(ii) a language barrier or low literacy
(difficulty reading, writing, or speaking in
English);
(iii) the pleading is of a sensitive nature,
such as a petition for an order of protection
or civil no contact/stalking order; or
(iv) a self-represented litigant tries to e-file
documents but is unable to complete the
process and the necessary equipment and
technical support for e-filing assistance is
not available to the self-represented
litigant.
A Certification for Exemption From Efiling, which includes a certification under
section 1-109 of the Code of Civil
Procedure,
and
any
accompanying
documents shall be filed with the court-in
person or by mail. The Certification for
Exemption From E-filing and documents
may also be filed by others means, such as

61

e-mail, if permitted by the local court. The
court shall provide, and parties shall be
required to use, a standardized form
expressly
titled
"Certification
for
Exemption From E-filing" adopted by the
Illinois Supreme Court Commission on
Access to Justice. Judges retain discretion
to determine whether good cause is shown.
If the court determines that good cause is
not shown, the court shall enter an order to
that effect stating the specific reasons for
the determination and ordering the
litigant to e-file thereafter.
Judges retain discretion
whether, under particular
good cause exists without
certificate, and the court
order to that effect.

to determine
circumstances,
the filing of a
shall enter an

(d)Timely Filing. Unless a statute, rule, or
court order requires that a document be
filed by a certain time of day, a document
is considered timely if submitted before
midnight (in the court's time zone) on or
before the date on which the document is
due. A document submitted on a day when
the clerk's office is not open for business
will, unless rejected, be file stamped as

62

filed on the next day the clerk's office is
open for business. The filed document shall
be endorsed with the clerk's electronic file
mark setting forth, at a minimum, the
identification of the court, the clerk, the
date, and the time of filing.
(1) If a document is untimely due to any
court-approved electronic filing system
technical failure, the filing party may seek
appropriate relief from the court, upon
good cause shown.
(2) If a document is rejected by the clerk
and is therefore untimely, the filing party
may seek appropriate relief from the court,
upon good cause shown.
(e)Filer
Responsible
for
Electronic
Submissions. The filer is responsible for
the accuracy of data entered in an
approved electronic filing system and the
accuracy of the content of any document
submitted for electronic filing. The court
and the clerk of court are not required to
ensure the accuracy of such data and
content.
(f)Effective Date. This rule is effective July
1, 2017 for proceedings in the Supreme
Court and the Appellate Court. For
proceedings in the circuit court, this rule is
effective January 1, 2018.

63

Lake County Illinois, Local Rule 2-1.02:
A. All uploaded documents that are not
exhibits or attachments created by word
processing programs must be formatted as
follows: (a) the size of the type in the body
of the text must be no less than twelve
point font, and footnotes no less than ten
point font; (b) the size of the pages must be
8½ by 11 inches; and (c) the margins on
each side of the page must each be a
minimum of 1 inch; and (d) the top right 2"
x 2" corner of the first page of each pleading
shall be left blank for the Clerk of the
Circuit Court's stamp. Additionally, each
electronically filed document shall include
the case title, case number and the nature
of the filing of each document.
.

